No. ________________

In the

Supreme Court of the United States
George Larsen, Petitioner
v.
United States of America, Respondent
On Petition for a Writ of Certiorari to
the United States Court of Appeals for
the Ninth Circuit

Motion for Leave to Proceed
In Forma Pauperis
Under 18 U.S.C. ยง 3006A(d)(7), Larsen seeks leave to file the attached petition for a writ of certiorari without prepayment of costs and to proceed in
forma pauperis. Petitioner has previously been granted court-appointed
counsel in the district court and on appeal to the Ninth Circuit.

Executed November 3, 2020

Kurt David Hermansen
Counsel of Record for Petitioner

